WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-5381

Kimberly Cortez

Lawrence F. Curtin

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

E

I am a member of the Bar of the Supreme Court of, the United States.

El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a ritio
r
ber.
Signature

Date.

Augus

(Type or print) Name

Firm

Ms. Kimberly Cortez

E

Mr.

El Ms.

El Mrs.

E Miss

State Attorney's Office - 19th Judicial Circuit, State of Florida

Address

411 S. 2nd Street

City & State
Phone

2020

Ft. Pierce, FL

772-462-1300

Zip

34950

Email SA19eservice@sao19.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Lawrence Curtin, Petitioner Pro Se, 1731 Avalon Ave., Ft. Pierce, FL

aCE1VED
SEP 1 0 2020
OFFICE OF THE OLERK
SUPREME COURT U.S.

